<html>
<title> - WESTERN HEMISPHERE DRUG POLICY COMMISSION ACT OF 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





         WESTERN HEMISPHERE DRUG POLICY COMMISSION ACT OF 2014

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 4640

                               __________

                              MAY 30, 2014

                               __________

                           Serial No. 113-145

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-109PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
SEAN DUFFY, Wisconsin                

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director


                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida<greek-l>       THEODORE E. DEUTCH, Florida
                                     ALAN GRAYSON, Florida











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 4640, To establish the Western Hemisphere Drug Policy 
  Commission.....................................................     2
  Amendment to H.R. 4640 offered by the Honorable Matt Salmon, a 
    Representative in Congress from the State of Arizona, and 
    chairman, Subcommittee on the Western Hemisphere.............    14

                                APPENDIX

Markup notice....................................................    18
Markup minutes...................................................    19
Markup summary...................................................    20

 
         WESTERN HEMISPHERE DRUG POLICY COMMISSION ACT OF 2014

                              ----------                              


                          FRIDAY, MAY 30, 2014

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 9:45 a.m., in 
room 2200, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. The subcommittee will come to order. Pursuant 
to notice, I call up H.R. 4640, the Western Hemisphere Drug 
Policy Commission Act of 2014, and I ask unanimous consent that 
the text of H.R. 4640 is modified by Salmon Amendment 54 that 
was provided to your office on Wednesday be considered base 
text for the purposes of markup. So ordered.
    Without objection, the base text is considered read, and 
open for amendment at any point, and all members may have 5 
days to insert remarks for the record. And I recognize myself 
to speak on this measure.
    [The information referred to follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Salmon. Today the subcommittee meets to consider H.R. 
4640, a bill to establish the Western Hemisphere Drug Policy 
Commission. I want to thank the full committee, Ranking Member 
Eliot Engel and his staff, as well as Representative Ileana 
Ros-Lehtinen and Ranking Member Sires for joining Mr. Engel and 
me in moving this piece of legislation forward.
    We have learned in recent subcommittee hearings that the 
transnational criminal organizations and narcotics traffickers 
continue to operate with impunity throughout the Western 
Hemisphere region, and have become increasingly sophisticated 
and violent. The United States has partnered with Mexico, as 
well as Central American and Caribbean countries, to build 
capacity for those governments to deal with the grave security 
situation. Through the Merida Initiative, the Central American 
Regional Security Initiative, and the Caribbean Basin Security 
Initiative, we have been helping to give these 
partner<greek-l>s deg. countries the tools they need to 
confront the scourge of these transnational criminal 
organizations. We need to do all we can to confront this 
threat, particularly because this violence is happening right 
at our doorstep. Naturally, we need to be sure we are using 
taxpayer resources wisely, and that we are employing the most 
effective strategies. The fact is, drug policy in the Western 
Hemisphere has been costly, and has had mixed results. While 
CRS has determined, we have spent upwards of $16 billion on 
this effort since the 1980s, some outside experts have come up 
with less conservative estimates nearing the $1-trillion mark 
spent on counterdrug efforts in Latin America since 1970. That 
is a lot of hard-earned taxpayer money without results to 
match. This bill will mandate a commission to determine what 
has worked, what hasn't, and what needs to be done going 
forward. That is common sense.
    I have included an amendment that places a firm limit on 
spending for this commission, not to exceed $2 million provided 
in the bill. This is a small investment to determine our best 
practices going forward to ensure that future U.S. taxpayer 
funds are realizing the results that were intended. Thank you 
again, Ranking Member Engel, for your work on this issue. It is 
time to get this effort right, not only for the security of our 
country and communities, but for the taxpayer and those tasked 
with leading the fight. And I now recognize Mr. Engel for his 
remarks.
    Mr. Engel. Thank you very much, Chairman Salmon. Thank you 
very much for holding today's markup of the Western Hemisphere 
Drug Policy Commission Act, and thank you for being the lead 
Republican sponsor of this bill. I also appreciate Ranking 
Member Sires' leadership on this subcommittee, and his co-
sponsorship of our bill. And as a former chairman of this 
subcommittee, I want to tell you it is always good to be back.
    This legislation would create an independent commission to 
evaluate U.S. policies aimed at reducing drug production and 
trafficking in the Western Hemisphere. The commission will be 
required to submit recommendations on future U.S. drug policy 
to Congress, the Secretary of State, and the Director of the 
Office of National Drug Control Policy, 12 months after its 
first meeting.
    A similar bill which I authored passed the House of 
Representatives unanimously in 2009. It didn't pass the Senate. 
That is why we are here. I am determined to bring this bill 
across the finish line and to the President's desk this time 
around. With $15.7 billion spent on counternarcotics programs 
in Latin America and the Caribbean between 1980 and 2012, it is 
important to take stock of what has worked, what has not 
worked, and what future U.S. drug policy should look like. 
While billions of taxpayer dollars have been spent over the 
years to fight the drug trade, illegal drug use in our country 
remains high. In particular, I am concerned by the dramatic 
increase in heroin use in our country. Attorney General Eric 
Holder recently noted that heroin overdose deaths in the United 
States increased by an alarming 45 percent between 2006 and 
2010.
    On the supply side, nearly all cocaine consumed in the 
United States originates in South America, while most heroin 
consumed here is from Colombia, Mexico, Central America, and 
the Caribbean are key transit regions for drugs entering our 
country. I am particularly concerned that the drug trade has 
shifted back to the Caribbean with 16 percent of cocaine 
imports into the United States coming through the Caribbean 
last year, compared to 4 percent in 2011.
    To tackle our Nation's horrific drug problem once and for 
all, we must have a better sense of what works, and what does 
not work. Our partners in the Americas who have worked closely 
with us in fighting drug trafficking for years, and the 
citizens of our great country who deal every day with illegal 
drugs on their streets deserve no less.
    So in closing, I would like to once again thank Chairman 
Salmon for holding this morning's markup, and I urge my 
colleagues to support this bipartisan legislation. Thank you.
    Mr. Salmon. Thank you, Mr. DeSantis, did you seek 
recognition?
    Mr. DeSantis. No.
    Mr. Salmon. All right. Are there any further amendments to 
the base text? No? Hearing no further amendments, the question 
is on agreeing to H.R. 4640 as amended. All those in favor, say 
aye.
    All those opposed, no.
    In the opinion of the Chair the ayes have it and the text 
is agreed to.
    Without objection H.R. 4640 as amended will be reported 
favorably to the full Committee on Foreign Affairs and staff is 
directed to make any technical and conforming changes. And that 
concludes our business, and without objection, the subcommittee 
stands adjourned.
    That has got to be a record, right? Thank you.
    [Whereupon, at 9:50 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
